No. 20-884
IN THE

Supreme Court of the United States
CHEVRON CORP., ET AL., PETITIONERS
v.
COUNTY OF SAN MATEO, ET AL., RESPONDENTS
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
BRIEF OF RESPONDENTS
IN OPPOSITION
Victor M. Sher, Counsel of Record
Matthew K. Edling
Martin D. Quiñones
Katie H. Jones
Sher Edling LLP
100 Montgomery St., Suite 1410
San Francisco, CA 94104
(628) 231-2500
vic@sheredling.com
matt@sheredling.com
marty@sheredling.com
katie@sheredling.com

John C. Beiers
David A. Silberman
Lauren F. Carroll
San Mateo County
Counsel
400 County Center, 6th Fl.
Redwood City, CA 94063
(650) 363-4250
Brian E. Washington
Brian C. Case
Brandon Halter
Marin County Counsel
3501 Civic Center Drive, Suite 275
San Rafael, CA 94903
(415) 473-6117

Counsel for Respondents – County of San Mateo, City of Imperial Beach, County
of Marin, County of Santa Cruz, City of Santa Cruz, and City of Richmond
[Additional counsel listed on signature page]

QUESTION PRESENTED
Whether 28 U.S.C. 1447(d) entitles a defendant, by including a meritless
federal-officer or civil-rights ground for federal jurisdiction in a removal petition, to
appellate review of every ground for removal rejected by the district court’s remand
order.

1

ARGUMENT
Petitioners argue that this case presents the same question as BP p.l.c. v.
Mayor and City Council of Baltimore, No. 19-1189. Respondents agree that the same
question is presented. Accordingly, respondents do not object to the relief requested
in the Petition: that the Petition should be held pending the decision in Baltimore.
If, for any reason, the Court does not dispose of the issue presented in
Baltimore, respondents assert that certiorari is not warranted in this case and will
file a supplemental Brief in Opposition at that time.
Respectfully Submitted,
/s/
John C. Beiers
David A. Silberman
Lauren F. Carroll
SAN MATEO COUNTY COUNSEL
400 County Center, 6th Fl.
Redwood City, CA 94063
(650) 363-4250
Counsel for Respondent
County of San Mateo
Brian E. Washington
Brian C. Case
Brandon Halter
MARIN COUNTY COUNSEL
3501 Civic Center Drive, Suite 275
San Rafael, CA 94903
(415) 473-6117
Counsel for Respondent
County of Marin

Victor M. Sher

Victor M. Sher
Counsel of Record
Matthew K. Edling
Martin D. Quiñones
Katie H. Jones
SHER EDLING LLP
100 Montgomery St., Suite 1410
San Francisco, CA 94104
(628) 231-2500
vic@sheredling.com
Counsel for Respondents
Jason M. Heath
Jordan Sheinbaum
SANTA CRUZ OFFICE OF THE
COUNTY COUNSEL
701 Ocean Street, Room 505
Santa Cruz, CA 95060
(831) 454-2040
Counsel for Respondent
County of Santa Cruz

2

Jennifer Lyon
Steven E. Boehmer
CITY ATTORNEY FOR
CITY OF IMPERIAL BEACH
8100 La Mesa Boulevard, Suite 200
La Mesa, CA 91942
(619) 440-4444

Teresa L. Stricker
Heather C. McLaughlin
CITY ATTORNEY’S OFFICE FOR
CITY OF RICHMOND
450 Civic Center Plaza
Richmond, CA 94804
(510) 620-6509

Counsel for Respondent
City of Imperial Beach

Counsel for Respondent
City of Richmond

Anthony P. Condotti
CITY ATTORNEY FOR
CITY OF SANTA CRUZ
333 Church St.
Santa Cruz, CA 95060
(831) 423-8383
Counsel for Respondent
City of Santa Cruz
April 5, 2021

3

